Audit Report




OIG-07-033
GENERAL MANAGEMENT: Few Exceptions Found With TBARR
Payments
March 12, 2007




Office of
Inspector General
Department of the Treasury
Contents

Audit Report................................................................................................. 3

Background ................................................................................................... 5

Finding and Recommendation ............................................................................ 5

    Two Errors Were Made to Charges to the TBARR Appropriations Accounts ........ 5

    Recommendation......................................................................................... 7

Appendices

    Appendix 1:         Objective, Scope, and Methodology ........................................ 8
    Appendix 2:         Management Response ......................................................... 11
    Appendix 3:         Report Distribution................................................................ 12

Abbreviations

    DO                  Departmental Offices
    GAO                 Government Accountability Office
    IPAC                Intragovernmental Payment and Collection
    OFAC                Office of Foreign Asset Control
    OFM                 Office of Financial Management
    TBARR               Treasury Building and Annex Repair and Restoration
    Treasury            Department of the Treasury




                        GENERAL MANAGEMENT: Few Exceptions Found With TBARR Payments                     Page 1
                        (OIG-07-033)
          This page intentionally left blank.




GENERAL MANAGEMENT: Few Exceptions Found With TBARR Payments   Page 2
(OIG-07-033)
                                                                 Audit Report
OIG
The Department of the Treasury
Office of Inspector General




                    March 12, 2007

                    Richard Holcomb
                    Acting Chief Financial Officer

                    The Conference Report for the Consolidated Appropriations Act,
                    2004, directed our office to comprehensively audit all Treasury
                    Building and Annex Repair and Restoration (TBARR) Program
                    contracts since fiscal year 1998.1 The audit was to include (1) a
                    review of compliance with all applicable procurement laws, rules,
                    and regulations and with the Architectural Barriers Act of 1968, as
                    amended; (2) a review of the scope, requirements, and cost
                    reasonableness of the project, as well as the process for managing
                    change orders to the original scope and design; and (3) a review of
                    the effectiveness, efficiency, and economy of contractor
                    operations. Further, the Conference Report for the Consolidated
                    Appropriations Act, 2005, directed our office to complete the audit
                    work on the TBARR Program, including determining whether the
                    renovation work was in compliance with building codes.2 We were
                    also asked to identify costs associated with delays in employee
                    moves into alternative space during restoration phases.

                    We have addressed these objectives in a series of audit reports.
                    During fiscal year 2004, we issued two interim audit reports, one
                    on project planning and one on contract award and administration.3
                    During fiscal year 2005, we issued two interim audit reports, one
                    on costs associated with delays in employee moves during
                    renovation and one on building code compliance of the renovation


1
  House Report (H.R.) 108-401.
2
  H.R. 108-792.
3
  GENERAL MANAGEMENT: Management of the Treasury Building and Annex Repair and Restoration
Program Needs to Be Strengthened (OIG-04-039; issued August 9, 2004); GENERAL MANAGEMENT:
Treasury Building and Annex Report and Restoration Program Procurement Practices Need to be
Improved (OIG -04 -043; issued September 23, 2004)

                    GENERAL MANAGEMENT: Few Exceptions Found With TBARR Payments       Page 3
                    (OIG-07-033)
                     work.4 This is the final audit report on our audit of the TBARR
                     program.

                     The objective of the current audit was to assess contract and other
                     costs charged to TBARR appropriations accounts to determine if
                     the payments were authorized, proper, accurately recorded,
                     adequately supported by documentation, and made for the
                     purposes intended.

                     In brief, we concluded that, overall, TBARR payments were
                     generally spent for the purposes and within the time periods
                     specified by Congress. However, we found that the Office of
                     Financial Management (OFM) inappropriately charged TBARR
                     appropriations accounts for expenses that should have been
                     charged to the Office of Foreign Assets Control (OFAC), a
                     component of Departmental Offices (DO), and Treasury’s Working
                     Capital Fund accounts. The amount of the incorrect charges was
                     $68,358. We are recommending that the accounting records for
                     TBARR, the Working Capital Fund, and OFAC be corrected for
                     these expenses.

                     We also want to bring to your attention that for 20 TBARR
                     payments, OFM was not able to provide the supporting original
                     documentation. We were able to validate the payments through
                     alternate procedures. However, we believe that maintaining original
                     documentation is a matter that requires continued management
                     attention.

                     We performed our audit fieldwork from November 2005 through
                     November 2006 at OFM in Washington, D.C. Appendix 1 contains
                     a more detailed description of our objective, scope, and
                     methodology.




4
  TBARR: Cost of Employee Move Delays During Main Treasury Building Renovation Could Not Be
Determined (OIG-05-035; issued April 1, 2005; TBARR: While Progress Has Been Made On The Main
Treasury Renovation, Code Violations And Other Deficiencies Need To Be Corrected (OIG-05-042;
issued July 29, 2005)

                     GENERAL MANAGEMENT: Few Exceptions Found With TBARR Payments         Page 4
                     (OIG-07-033)
Background

                       After a June 1996 roof fire resulted in major damage to the Main
                       Department of the Treasury (Treasury) building, Treasury decided
                       to modernize the building. The TBARR Program was established in
                       August 1998 for the purposes of (1) repairing and restoring the
                       Main Treasury building to correct the damage caused by the roof
                       fire, (2) restoring the historic fabric of the building, and
                       (3) modernizing the building and its systems to comply with current
                       codes and standards. At the same time, Treasury established the
                       TBARR Program Office within the Office of Management to procure
                       related services, oversee design and construction activities, and
                       coordinate employee moves during construction.

                       From fiscal year 1995 through fiscal year 2005, Treasury expended
                       approximately $229 million for the TBARR project. These payments
                       consisted of disbursements for TBARR employees’ salaries and
                       expenses, vendor invoices, and credit card bills. They also included
                       payments made through the Intragovernmental Payment and
                       Collection (IPAC)5 system to transfer funds to other federal
                       agencies that provided goods or services to the TBARR project. To
                       process TBARR payments, OFM used the Federal Financial System
                       from fiscal year 1995 through fiscal year 2003 and has used the
                       Oracle Federal Financials System since then to the present.

Finding and Recommendation

Finding 1              Two Errors Were Noted to Charges to the TBARR
                       Appropriations Accounts

                       To determine whether costs were allocated appropriately, we
                       tested 55 payments totaling $3.2 million in which costs were split
                       between TBARR Program and DO appropriations accounts. These
                       55 payments were made to 11 contractors and principally
                       represented low and high-dollar amounts. We found that OFM


5
 IPAC is an Internet-based collection and payment system. It facilitates the intragovernmental transfer
of funds by providing a standardized interagency fund transfer mechanism for federal agencies.




                       GENERAL MANAGEMENT: Few Exceptions Found With TBARR Payments               Page 5
                       (OIG-07-033)
                        inappropriately charged TBARR appropriations accounts, rather
                        than other DO appropriations accounts and the Working Capital
                        Fund, for 2 of the 55 payments.

                        •   In one case, a payment of $42,124 was charged to the TBARR
                            appropriation account instead of the Working Capital Fund.6 The
                            TBARR Program Office submitted the required obligating
                            documentation reflecting the change from TBARR to the
                            Working Capital Fund, but the OFM accounting technician did
                            not make the change in the OFM payment system. We were
                            unable to contact the technician because she no longer works
                            at OFM.

                        •   In the second case, a payment of $26,234 was charged to the
                            TBARR appropriations account instead of OFAC.7
                            Documentation we reviewed for the transaction indicated that
                            the cost center for the obligation was assigned to OFAC for
                            non-TBARR related work. OFM’s accounting technician told us
                            that since the contractor was a TBARR contractor who was
                            doing OFAC work, he assumed that the payment should have
                            been charged to TBARR. The technician did not refer to the
                            original obligating documents that contained the correct cost
                            center and appropriations account.

                        According to the Government Accountability Office’s (GAO)
                        Standards for Internal Control in the Federal Government,
                        transactions should be promptly recorded to maintain their
                        relevance and value to management in controlling operations and
                        making decisions. This applies to the entire process or life cycle of
                        a transaction or event from the initiation and authorization through
                        its final classification in summary records. In addition, control
                        activities help to ensure that all transactions are completely and
                        accurately recorded.


6
  The Department of the Treasury’s Working Capital Fund is a revolving fund that was created by
Congress to centrally provide common administrative services across Treasury that would result in
economies of scale, eliminate duplication of effort and redundancy.
7
  The Office of Foreign Assets Control administers and enforces economic and trade sanctions based on
U.S. foreign policy and national security goals against targeted foreign countries, terrorists, international
narcotics traffickers, and those engaged in activities related to the proliferation of weapons of mass
destruction.


                        GENERAL MANAGEMENT: Few Exceptions Found With TBARR Payments                  Page 6
                        (OIG-07-033)
Recommendation

We recommend that the Acting Chief Financial Officer direct OFM
to make necessary adjustments to the accounting records for
TBARR, the Working Capital Fund, and OFAC to correct erroneous
charges disclosed as a result of our review.

Management Response

Management agreed with the finding and indicated that corrective
actions were underway to address each of the items. The
corrective actions will be completed by March 30, 2007.

OIG Comment

Management’s planned corrective action is responsive to the intent
of our recommendation.


                          * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss this report, you may
contact me at (202) 927-5904.




Thomas E. Byrnes
Director, Procurement Audits




GENERAL MANAGEMENT: Few Exceptions Found With TBARR Payments   Page 7
(OIG-07-033)
Appendix 1
Objective, Scope, and Methodology




The overall objective of this audit was to assess contract and other
costs charged to the Treasury Building and Annex Repair and
Restoration (TBARR) Program appropriation accounts.

We analyzed the internal control and control activities over the
TBARR payment process, including segregation of duties, proper
execution of transactions and events, accurate and timely
recording of transactions and events, accountability for resources
and records, and appropriate documentation of transactions and
internal control. To accomplish this task, we did the following:

   a. Reviewed available Office of Financial Management’s (OFM)
      flow diagrams and procedures for processing TBARR
      payments.

   b. Interviewed OFM budget analysts to obtain an understanding
      of the financial plans, budget execution, and funds
      certification processes.

   c. Interviewed the OFM Chief of Vendor Resources, OFM
      accounting and payroll technicians, payment approving
      officials, and financial specialists to determine the
      procedures for processing invoices and Intragovernmental
      Payment and Collection, payroll, and adjustment
      transactions.

   d. Reviewed contract files and credit card documents and
      payroll files, as applicable, from the TBARR Program and
      Facilities Management Division offices.

We sampled TBARR transactions to determine whether they were
authorized, accurate, supported, properly recorded, made for the
purposes intended for the project, and charged to the appropriate
TBARR appropriations accounts. Specifically, we reviewed 60
transactions from fiscal years 1995 through 2005. We selected
two samples. First, we selected 181 transactions totaling
$15,280,632. From this sample we reviewed 60 transactions
totaling $5,197,118 for our initial review. Since we did not find
any significant exceptions, we decided to conclude our review of
the first 60 sample transactions. We also selected 55 payments
sent to 11 contractors where the costs were split between TBARR


GENERAL MANAGEMENT: Few Exceptions Found With TBARR Payments   Page 8
(OIG-07-033)
Appendix 1
Objective, Scope, and Methodology




and other Department Offices appropriations accounts. We
selected low and high-dollar transactions to review for this stage of
our audit.

For the selected transactions, we requested original supporting
documentation (i.e. invoices, purchase orders, contracts, receiving
documentation, voucher schedule detail reports, payroll transaction
reports, budget reports, general ledger document schedule reports,
and other applicable reports from the accounting systems). We
performed the following tests:

   a. Determined if the payments represented goods or services
      received;

   b. Verified whether the payment transactions were accurate as
      to terms, quantities, prices, and extensions (verified the
      mathematically accuracy of the invoices and supporting
      documentation);

   c. Verified whether the payments were made in accordance
      with the Prompt Payment Act;

   d. Traced account distribution on the contract, purchase order,
      and payment documentation to the Chart of Budget Object
      and Sub Object classes and verified proper classifications;

   e. Tested for duplicate payments;

   f. Analyzed the documentation maintained by OFM and the
      program offices (TBARR and the Facilities Management
      Division);

   g. Determined that federal monies were spent for the purposes
      and within the time periods set by Congress, to prevent
      obligations expenditures, or disbursements in excess of the
      appropriations or budget authority approved by Congress;
      and

   h. Reviewed contract files.




GENERAL MANAGEMENT: Few Exceptions Found With TBARR Payments    Page 9
(OIG-07-033)
Appendix 1
Objective, Scope, and Methodology




For 20 of the 115 transactions we reviewed, totaling
approximately $656,000, OFM was not able to provide us original
documentation to support the payments. We applied alternative
procedures to satisfy ourselves that the payments were proper.

We performed our audit fieldwork at Treasury’s Departmental
Offices in Washington, D.C., from November 2005 through
November 2006. We performed the audit in accordance with
generally accepted government auditing standards.




GENERAL MANAGEMENT: Few Exceptions Found With TBARR Payments   Page 10
(OIG-07-033)
Appendix 2
Management Response




GENERAL MANAGEMENT: Few Exceptions Found With TBARR Payments   Page 11
(OIG-07-033)
Appendix 3
Report Distribution




Department of the Treasury

Acting Assistant Secretary for Management
Acting Chief Financial Officer
Assistant Secretary for Legislative Affairs
Acting Director, Office of Financial Management
Director, Office of Accounting and Internal Controls



Office of Management and Budget

OIG Budget Examiner




GENERAL MANAGEMENT: Few Exceptions Found With TBARR Payments   Page 12
(OIG-07-033)
